HHS/OIG-Audit--"Superfund Financial Activities at the National Insitute of Environmental Health Sciences for Fiscal Year 1997, (A-04-98-04221)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1997," (A-04-98-04221)
November 17, 1998
Complete
Text of Report is available in PDF format (488 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of the National Institute of Environmental Health Sciences (NIEHS)
Superfund financial activities for Fiscal Year 1997. The audit showed that NIEHS generally administered the fund according
to Superfund legislation.